The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
                                        F. Scott Kieff
         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                    WASHINGTON, DC 20436


December 13, 2013                                                          OIG-LL-022

Chairman Williamson:

This memorandum transmits the results of the audit (OIG-AR-14-05) of the Commission’s
financial statements for the fiscal years ended September 30, 2013 and 2012. The results of this
report were presented by the auditors and discussed at the exit conference on December 12,
2013.

We contracted with the independent certified public accounting firm, Castro & Company, LLC,
to conduct this audit. The contract required that the audit be performed in accordance with U.S.
generally accepted government auditing standards.

My office has policies and procedures that are designed to provide assurance that work
performed by non-Federal auditors complies with the auditing standards. These procedures
follow the guidelines provided in the GAO/PCIE Financial Audit Manual (FAM650). In
connection with this contract, we reviewed Castro & Company’s final report and related
documentation and made inquiries of its representatives. Our involvement in the audit process
consisted of monitoring audit activities, attending meetings, participating in discussions, and
reviewing the audit planning, working papers, conclusions, and results.

Our involvement and review of Castro & Company’s work disclosed no instances where they did
not comply, in all material respects, with the U.S. generally accepted government auditing
standards; however, this review cannot be construed as an audit, and is not intended to enable us
to express, and we do not express, any opinion on the Commission’s financial statements. Castro
and Company is solely responsible for the audit report dated December 9, 2013, and the
conclusions expressed in the report.

Thank you for the cooperation and courtesies extended to both Castro & Company and my staff
during this audit.

Sincerely,



Philip M. Heneghan
Inspector General
                                                                                    1711 King Street
                                                                                    Suite C
                                                                                    Alexandria, VA 22314
                                                                                    Phone: 703.229.4440
                                                                                    Fax: 703.859.7603
                                                                                    www.castroco.com
                                   Independent Auditor’s Report


Inspector General
U.S. International Trade Commission

We have audited the accompanying balance sheets of the U.S. International Trade Commission
(ITC) as of September 30, 2013 and 2012, and the related statements of net cost, changes in net
position, and budgetary resources for the fiscal years then ended.

Management’s Responsibility for the Financial Statements
Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation
of financial statements that are free from material misstatement, whether due to fraud or error.

Auditor’s Responsibility
Our responsibility is to express an opinion on these financial statements based on our audits. We
conducted our audits in accordance with the auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and, Office of Management and
Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements. Those
standards require that we plan and perform the audits to obtain reasonable assurance about whether
the financial statements are free from material misstatement. An audit involves performing
procedures to obtain audit evidence about the amounts and disclosures in the financial statements.
The procedures selected depend on the auditor’s judgment, including the assessment of the risks of
material misstatement of the financial statements, whether due to fraud or error. In making those
risk assessments, the audit considers internal control relevant to the agency’s preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the agency’s
internal control. Accordingly, we express no such opinion. An audit also includes evaluating the
appropriateness of accounting policies used and the reasonableness of significant estimates made by
management, as well as evaluating the overall financial statements presentation. We believe that the
audit evidence we have obtained is sufficient and appropriate to provide a basis for our opinion.

Opinion
In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the ITC as of September 30, 2013 and 2012, and the related statements of net
cost, changes in net position, and budgetary resources for the years then ended in accordance with
accounting principles generally accepted in the United States of America.

Required Supplementary and Other Information
U.S. generally accepted accounting principles require that the information in the Required
Supplementary Information, including Management's Discussion and Analysis, be presented to
supplement the basic financial statements. Such information, although not part of the basic financial
statements, is required by the Federal Accounting Standards Advisory Board who considers it to be
Independent Auditor’s Report
Page 2


an essential part of financial reporting for placing the basic financial statements in an appropriate
operational, economic, or historical context. The supplementary information is the responsibility of
management and was derived from, and relates directly to, the underlying accounting and other
records used to prepare the basic financial statements. We have applied certain limited procedures to
the required supplementary information in accordance with auditing standards generally accepted in
the United States of America, which consisted of inquiries of management about the methods of
preparing the information and comparing the information for consistency with management’s
responses to our inquiries, the basic financial statements, and other knowledge we obtained during
our audit of the basic financial statements. We do not express an opinion or provide any assurance
on the information because the limited procedures do not provide us with sufficient evidence to
express an opinion or provide any assurance.

The information presented in the Message from the Chairman, and Other Accompanying
Information, and Appendices is presented for purposes of additional analysis and is not required as
part of the basic financial statements. Such information has not been subjected to auditing
procedures applied by us in the audit of the basic financial statements, and accordingly, we do not
express an opinion or provide any assurance on it.

Other Reporting Required by Government Auditing Standards
In accordance with U.S. Government Auditing Standards and OMB Bulletin No. 14-02, we have also
issued our reports dated December 9, 2013, on our consideration of ITC’s internal control over
financial reporting and the results of our tests of its compliance with certain provisions of laws,
regulations, and other matters that are required to be reported under Government Auditing Standards.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit
performed in accordance with U.S. Government Auditing Standards and OMB Bulletin 14-02 in
considering the ITC’s internal control and compliance, and should be read in conjunction with this
report in considering the results of our audit.




December 9, 2013
Alexandria, VA
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
